<html>
<title> - THE BULLETPROOF VEST PARTNERSHIP PROGRAM: PROTECTING OUR NATION'S LAW ENFORCEMENT OFFICERS</title>
<body><pre>[Senate Hearing 110-401]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-401
 
 THE BULLETPROOF VEST PARTNERSHIP PROGRAM: PROTECTING OUR NATION'S LAW 
                          ENFORCEMENT OFFICERS 

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 13, 2008

                               __________

                          Serial No. J-110-92

                               __________

         Printed for the use of the Committee on the Judiciary

                               ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

42-726 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 









































                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel













































                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    12
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    17

                               WITNESSES

Azur, David, Detective, Baltimore City Police Department, 
  Baltimore, Maryland............................................     5
Macarilla, Michael, Lieutenant, Vermont State Police, Waterbury, 
  Vermont........................................................     3

                       SUBMISSIONS FOR THE RECORD

Azur, David, Detective, Baltimore City Police Department, 
  Baltimore, Maryland, statement.................................    10
Herraiz, Domingo S., Director, Bureau of Justice Assistance, 
  Office of Justice Programs, Department of Justice, Washington, 
  D.C., statement................................................    13
Macarilla, Michael, Lieutenant, Vermont State Police, Waterbury, 
  Vermont, statement.............................................    19


 THE BULLETPROOF VEST PARTNERSHIP PROGRAM: PROTECTING OUR NATION'S LAW 
                          ENFORCEMENT OFFICERS

                              ----------                              


                         TUESDAY, MAY 13, 2008

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 9:34 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senator Leahy.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning, and I am pleased to convene 
today's hearing about the Bulletproof Vest Partnership grant 
program during National Police Week. Lieutenant Macarilla and 
Detective Azur, please come up and sit down.
    I thank our witnesses for taking time during this week of 
very important events and meaningful ceremonies to appear 
before this Committee and share their experiences with us to 
help us better understand the importance of body armor for our 
peace officers.
    Incidentally, I am looking forward to Thursday morning to 
be at the events on the West Front of the Capitol, as I am most 
years, because this is the week that law enforcement officers 
come from around the country, they come to Washington to honor 
the men and women who have given their lives in the line of 
service over the past year.
    One thing with the ceremony, it shows that all Americans 
join in expressing their gratitude to these officers and, of 
course, to their families. I hope today's hearing will add to 
the recognition of the tremendously important jobs all of you 
do, and that Congress and the American people will take the 
time to reflect upon the sacrifices you make. I know I speak 
for all Americans in thanking you and all of the men and women 
serving in law enforcement for your service to our communities 
and to the people of the United States.
    The intent of this hearing is to highlight the importance 
of the Bulletproof Vest Partnership grant program. We are going 
to hear directly from those who are on the other end of that 
body armor program.
    I want to have the forum also so I could let Members of 
Congress know how important the bulletproof vests are to not 
only the officers but to their families. This week at 
Thursday's memorial, we will recognize and remember the 
officers lost in the line of duty during the last year. There 
were 181 officers. Each death is a tragedy, but this is the 
largest yearly total since the extraordinary losses on 9/11 and 
its aftermath. Let me emphasize that we have to do all we can 
to protect the men and women who protect us.
    One of the officers with us today has had firsthand 
experience with the importance of armor vests, and I am 
grateful to him for his willingness to share the experience 
with the Committee. I am also very pleased that Lieutenant 
Michael Macarilla from the Vermont State Police is here with us 
to share his insights into this program. The lieutenant has 
done something I am not quite sure I could have done, but he 
arrived in Washington by bicycle. Our State Police normally do 
not patrol in Vermont by bicycle. There is a T-shirt which 
says, ``Vermont is not flat.'' And it is not. But he rode 300 
miles from New Jersey with other police officers in the Police 
Unity Tour to raise awareness about those who have lost their 
lives and to raise funds for the Law Enforcement Officers 
Memorial and Museum. Michael, thank you for doing that.
    I was proud to initiate the Bulletproof Vest Partnership 
Act. I did it with Senator Ben Nighthorse Campbell, the former 
Senator from Colorado, and who had also been a deputy sheriff. 
Between 1999 and 2007, our bill gave $234 million to the 
States, and that means 818,044 vests. It is great that the law 
we enacted is having a real impact on the security of our 
officers. I have had a lot of officers come up to me in 
airports all over the country and other cities and say, ``I 
heard you wrote the vest program.'' They will tap their chest, 
and they will say, ``Thank you.'' I say ``Thank you'' to them 
for protecting us.
    Now, the President's budget has repeatedly left out funding 
for this program, but Congress has stepped up, we have 
recognized its importance. We have put together a bipartisan 
coalition to keep it strong. I hope we will do it again. It may 
be easy for somebody who is just looking at Federal grant 
programs as just numbers and find ways to reduce Federal 
spending. But when it comes to the safety of law enforcement 
officers, I can think of no rational excuse not to fully fund 
what Congress requires in this program. And for those of us who 
had the privilege of serving in law enforcement before we came 
here, we know how important that is.
    Bulletproof vests are expensive; no officer should be 
without one. They should be basic equipment. We should be past 
the time when this is viewed by departments as optional or when 
officers, who do not get that great a salary begin with, are 
told to pay for it themselves. The vests are a fundamental part 
of keeping officers safe in the line of duty, and if State and 
local jurisdictions are unable to pay for it, I think the 
Federal Government should step up. If we can afford to send 
over $1 billion to pay for equipment for the Iraqi Police 
Department--and then we do not know where most of it went--we 
ought to be able to take care of the police departments in our 
own country. So let us pay for training and equipment for our 
officers. Let's do some of the things we need to do here at 
home.
    I am introducing today a bill to reauthorize this program 
for another 3 years, and this week the Judiciary Committee will 
take up legislation to give the Director of the Bureau of 
Justice Assistance at the Justice Department the authority to 
waive the Act's matching requirement.
    I will put the rest of my statement in the record. I want 
to hear from the witnesses, and I know we are going to have 
votes here in a while on the floor.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Chairman Leahy. Michael Macarilla is a lieutenant with the 
Vermont State Police. He works to distribute bulletproof vests 
to officers in our State, and we talked about this back home in 
Vermont. He began his service with the State troopers in 1989. 
He became a lieutenant in 2006. He worked in the Bureau of 
Criminal Investigation from 1998 to 2003. He was a liaison with 
the Bureau of Alcohol, Tobacco, and Firearms. He served on 
various volunteer fire departments and ambulance squads over 
the years. He has been on the Executive Board of Vermont 
Troopers Foundation from 2000 to 2007.
    And then he will be joined by Detective David Azur. He is a 
detective with the Baltimore Police Department in Baltimore, 
Maryland. He also works as a task force officer for the Bureau 
of Alcohol, Tobacco, and Firearms. Detective Azur began serving 
with the Baltimore Police in 1993 as a patrol officer. He 
became a detective in 1997. He was subsequently assigned to a 
multi-jurisdictional auto theft task force. While working for 
the regional auto theft task force in 2000, Detective Azur was 
shot in the line of duty at point-blank range. He survived 
because he was wearing a bulletproof vest, and he was awarded 
the Medal of Valor for his actions that day and has been 
awarded the Exceptional Police Performance Award by the 
Baltimore County Police Foundation. I hope I do not sound 
parochial in pointing out that he is from South Burlington, 
Vermont, and he attended the University of Vermont and Florida 
State University.
    So, Lieutenant Macarilla, we will begin with you, sir. Go 
ahead.

   STATEMENT OF LIEUTENANT MICHAEL MACARILLA, VERMONT STATE 
                   POLICE, WATERBURY, VERMONT

    Mr. Macarilla. Senator Leahy, distinguished members of the 
Committee, I am Lieutenant Michael Macarilla of the Vermont 
State Police.
    This morning, I am honored to share with you the 
experiences my Department has had with the Bulletproof Vest 
grant program from its inception 10 years ago.
    The Vermont Department of Public Safety has had an 
extensive and successful working relationship with Senator 
Leahy and with the Bureau of Justice Assistance. In 1998, 
Senator Leahy cosponsored the Bulletproof Vest Partnership 
Grant Act at a time when our department was regrouping in the 
aftermath of the so-called Colebrook Incident.
    On August 19, 1997, a lone gunman killed four people in 
northern New Hampshire, including New Hampshire State Troopers 
Scott Phillips and Leslie Lord. The gunman also wounded four 
additional law enforcement officers in ambush fashion. The 
rampage began in New Hampshire, but moved into Vermont where 
the gunman was finally stopped by a combined force of Vermont, 
New Hampshire, and Federal law enforcement officers.
    At that time, Vermont State Troopers did not have ballistic 
body armor provided by the Department. Each trooper made the 
personal decision whether to purchase this life-saving, yet 
expensive, equipment. As a result of extensive after-action 
reviews, the Vermont State Police committed to providing 
ballistic body armor to each member of the Department.
    On the national level, Congress recognized the need to help 
local, county, and State law enforcement agencies by supporting 
the purchase of body armor through the Bulletproof Vest 
Partnership Grant Act.
    As administered by the Bureau of Justice Assistance, the 
Act has allowed the Vermont State Police to purchase over 350 
sets of ballistic body armor over the last 10 years. A credit 
to the provisions of the Act, the expense of this investment is 
half of what the actual cost for the department would have 
been. This provides a savings to the department that can be 
used for other equally critical needs. Although the department 
was committed to the purchase of ballistic body armor 
regardless of the passage of the Act, certainly the force-
multiplying effect of the Act should not be understated. While 
the dollar amounts may seem small by national standards, this 
support is often the critical difference when a small agency is 
faced with prioritizing how to spend limited dollars on what is 
truly life-saving equipment.
    We understand that there is discussion concerning an option 
to permit the Bureau of Justice Assistance to waive the 
matching funds requirement of the Act. The Vermont Department 
of Public Safety supports that concept. The Bureau of Justice 
Assistance has been an outstanding partner with the States. 
Under the leadership of Director Domingo Herraiz, the Bureau 
has worked diligently to get funding resources and technical 
assistance out to the field with a minimum of bureaucratic 
hurdles. The authority to waive matching requirements for 
agencies that need that latitude will continue the proven 
effectiveness of the BJA.
    Vermont has been fortunate in not having the experience of 
other States with officers being wounded or killed by gunfire. 
The Committee will continue to hear from law enforcement 
officers who owe their lives to the presence of this grant 
program.
    In March of this year, Senator Leahy and Senator Specter 
traveled to Rutland, Vermont, and heard testimony from 
Vermonters on the influx of more brazen, violent actions 
related to drug-trafficking activity. Vermont is not immune to 
violence, and Vermont law enforcement--and Vermont State Police 
agencies are greatly indebted to the ongoing support we receive 
from your efforts in the combined justice assistance programs 
that are available to us. Your efforts to protect us with these 
programs, such as the Bulletproof Vest Partnership Grant, allow 
us to protect our citizens.
    Thank you for the honor and opportunity to offer this 
testimony today.
    [The prepared statement of Mr. Macarilla appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you for being here. We are 
going to go into questions in a minute, but you speak about the 
Draga event that involved both States and Federal authorities 
near the Canadian border. It was just horrible. A lot of things 
came out of that, not only the bulletproof vests but more 
effort at having the ability for various jurisdictions to speak 
to each other on radios. As you know, we have lots of dead 
spots where cell phones are no good.
    The then-Director of the FBI, Louis Freeh, was staying at 
my home in Vermont, in Middlesex--and you know where that is.
    Mr. Macarilla. Yes, sir.
    Chairman Leahy. We decided to drive down to the hospital, 
just the two of us, and see one of the Federal agents who had 
been badly wounded. It was not until I came there that I made 
the connection with his last name. His father had been a 
professor of mine at St. Michael's College, and I had known 
him--I first saw this officer when he was about a month old. 
And it was quite emotional. He survived--severely wounded, but 
survived. Not all the officers did, as you know.
    Detective Azur, would you please give your testimony? I 
know what is in it, but I think we should hear that.

   STATEMENT OF DETECTIVE DAVID AZUR, BALTIMORE CITY POLICE 
                DEPARTMENT, BALTIMORE, MARYLAND

    Mr. Azur. Thank you. Good morning again. Thank you for the 
opportunity to speak here today. It is truly an honor.
    My name is David Azur, and I am a detective with the 
Baltimore City Police Department in Maryland. I would like to 
share with you why I believe so strongly in the importance of 
every officer wearing a bulletproof vest.
    I have been a police officer since 1993 and became a 
detective in 1997. On July 24, 2000, I was a member of a multi-
jurisdictional auto theft task force. Our goal was to apprehend 
car thieves while they were driving stolen vehicles. I was 
working in plain clothes and was operating an unmarked sport 
utility vehicle. I wore a PACA brand bulletproof vest in a 
black tactical carrier that I wore over my shirt. The vest was 
clearly marked ``POLICE'' in big, bold letters, and it was 
issued to me in August 1995.
    At approximately 12:30 in the afternoon, I observed a 
suspected stolen vehicle traveling northbound on Pennsylvania 
Avenue in Baltimore City. With the assistance of additional 
units from the auto theft task force, we stopped the vehicle at 
a red light on a busy main street in Baltimore. I approached 
the passenger side of the vehicle and spoke with both the 
driver and the passenger through an open window. My partner 
approached the driver side of the vehicle as well. I asked the 
driver who owned the vehicle. He said he obtained the vehicle 
from an unknown male earlier in the day and did not know who 
owned the car. I told my partner to pull the driver out of the 
vehicle and to place him under arrest. I then removed the 
passenger from the vehicle and immediately got into a struggle 
with him.
    The car door was open, and I had the suspect pinned up 
against the car between the open door and the passenger seat, 
my chest against his back. As I was restraining him, he 
attempted to grab something from his pocket, which I assumed 
were drugs that he was trying to dispose of. I had his left arm 
pinned to the top of the car, and I reached around and grabbed 
his right arm. A third officer, who had arrived on the scene 
and was standing on the other side of the open passenger door, 
attempted to grab the suspect's right arm as well. Just as the 
officer grabbed the suspect's arm, the suspect rotated to his 
left, and I heard a gunshot. Unbeknownst to me, the suspect had 
a .38-caliber revolver in his waist, which he had grabbed with 
his right hand. He reached around his body, positioning the gun 
under his left armpit. When he rotated to the left, he shot me 
at point-blank range, dead center in the chest. The gunshot 
threw me back, but did not knock me down. The suspect took off 
running, and the two officers on the scene with me took off 
running after him. Nobody knew that I had been shot, including 
myself.
    Perhaps 5 to 10 seconds later I heard a second gunshot, 
which was the suspect committing suicide. It was at that point 
that I felt the pain in my chest and realized that I had been 
shot. I gasped for air and shouted to an officer about 20 feet 
away from me that I had been shot. He was shocked and shouted 
back, ``What?'' I told him that I had been shot. I then grabbed 
my handheld radio and alerted the police dispatcher that I had 
been shot and waited for help to arrive. I ripped off my vest 
and asked the officer ``Where's the blood?'' He told me that 
the bullet didn't go through the vest, and I replied that it 
still hurt like hell. My chest bruised almost instantly, and by 
the time the medic arrived on the scene, I had a bruise the 
size of a volleyball on my chest.
    I was taken to the University of Maryland's Shock Trauma 
Unit and was told that if I hadn't been wearing my bulletproof 
vest that in all likelihood I would have died. I was released 
from the hospital less than 5 hours after having been shot in 
the chest at point-blank range. I suffered minor nerve damage, 
which I still have to this day, but it is a small price to pay 
for what could have happened if I had not been wearing my vest.
    Many people view the day that I got shot as a terrible day, 
but I view it as just the opposite. I am lucky to be alive and 
owe my life to the bulletproof vest. Every officer should have 
a bulletproof vest. If there is anything that I can do or say 
to help officers obtain and wear their vest, then I would love 
to do it and feel as though it is the least that I can do.
    Again, thank you for your time, and it has been an honor.
    [The prepared statement of Mr. Azur appears as a submission 
for the record.]
    Chairman Leahy. You said if there is anything you could say 
or do. You have, and I can assure you that every member of this 
Committee is going to see that testimony.
    I notice that Jim Pasco, the Executive Director of the FOP, 
just came in, and, Jim, would you stand up so these officers 
can see you.
    The FOP has been tremendous in its support of the 
bulletproof vest program, and I am sure they will take note of 
the testimony of both of you.
    Let me ask Lieutenant Macarilla this: In the Justice 
Department, the Department of Justice is administering this. 
Mostly there are parts where they do it very well, and parts 
where maybe they should do it better. Can you talk about both? 
Where do you think they do the best, where do you think they 
might do better?
    Mr. Macarilla. Our experience in Vermont has been quite 
positive. They make the moneys available to our grants 
specialist. She lets us know how much money we have to spend on 
the vests, and then they reimburse us after the vests are 
purchased. We cannot match those Federal funds with other 
Federal funds such as funds that we take from drug dealers, the 
profits of drug sales. That may be something that may need to 
be looked into so that funds that are seized from a drug deal 
that are supposed to go back into law enforcement can also be 
used to purchase the vests for the other half.
    Chairman Leahy. You know, Marc Metayer is now the Deputy 
Commissioner of the Vermont Department of Public Safety. He 
helped a lot in the passage of the original law. My office 
worked with him, and I worked closely with him. In fact, at the 
signing ceremony, he was here and made comments about 
introducing the President, President Clinton at that time. He 
described how for 20 years as a State trooper he has purchased 
his own body armor, but also for many that was not a 
possibility. And, of course, after the Carl Draga matter we 
talked about, he realized how important it was.
    Our State is probably typical of rural areas with the 
exception of Burlington, South Burlington. Most of the police 
departments are fairly small, and in a lot of towns there may 
be a one-person police department, if that. Otherwise, we rely 
on the State Police or sheriff's departments. Do you find that 
some of these towns have problems matching the amount of 
money--or doing the matching funds to buy vests?
    Mr. Macarilla. They do. Small towns like the town I live 
in, Waterbury, I think 70 percent of the village's budget goes 
to the police department as it is. With resources as limited as 
they are for a small five- or six-man department, they can run 
into problems getting the matching grants. And then they also 
have to have the administrators within the village government 
to go out and do the research and make sure they apply for the 
funding to come back to the departments afterwards. So it can 
be for the smaller towns very troublesome.
    Chairman Leahy. They also have--of course, sometimes you 
have departments that have gone through terrible tragedies, 
Katrina and things like that, and there is no money for 
anything.
    Mr. Macarilla. Right.
    Chairman Leahy. And the matching funds can be more than 
enough. You know, it worries me also, again, with these small 
areas. They happen to have no back-up, and they are often the 
only person on the scene, and you would think that you would 
want, if anything, to require even more equipment to be there.
    Mr. Macarilla. Right.
    Chairman Leahy. And one of the things when I first got into 
this with Senator Campbell and I started researching it, I was 
surprised--and when I was a prosecutor, you almost never saw 
any kind of body armor, not the type of things we have today. 
But I was surprised to find out these things break down. They 
wear out. Is that correct?
    Mr. Macarilla. The manufacturers only warranty them for 5 
years, regardless of how much they have been used during that 
5-year period. So every 5 years, we have to replace the body 
armor that is issued to the officers.
    Chairman Leahy. And, Detective Azur, do you still have that 
vest?
    Mr. Azur. I do, sir. This is the trauma plate. You know, in 
addition to my ballistic vest that goes around my body, I have 
got a pound in the center that holds this plate.
    Chairman Leahy. Would you hold that up?
    Mr. Azur. And this is where the bullet struck me. It looks 
like a little tiny smudge mark.
    Chairman Leahy. It didn't feel like that on the other side, 
did it?
    Mr. Azur. Yes, it felt like a sledgehammer, and it hit me 
in the chest. And talking about the warranty on the vest, my 
vest was issued to me in August 1995, so the warranty expired 
in August 2000, and I got shot on July 24th of 2000.
    Chairman Leahy. Man, you got lucky all around. You know, it 
seems almost wrong to say this, but if you had not had it, you 
might not have felt anything. You would have been dead.
    Mr. Azur. Absolutely. Yes, I have no doubt about that 
whatsoever.
    Chairman Leahy. Wearing that vest--I mean, if you had not 
been wearing a vest, would you not have still reacted--I mean, 
you would have gone and tried to make the arrest and everything 
else?
    Mr. Azur. Absolutely.
    Chairman Leahy. That is your job, right?
    Mr. Azur. Yes, although there has never been a day when I 
have not worn my vest. It is just part of my standard 
equipment. I cannot imagine going on the street without wearing 
my gun, and I cannot imagine going on the street without 
wearing my vest.
    Chairman Leahy. Is there a mandatory policy for the 
Baltimore Police?
    Mr. Azur. There is, although, you know, there is personal 
choice. There are still many members of the department that do 
not wear their vests, which just amazes me. But it is a matter 
of personal choice, and it is essential equipment that you must 
have.
    Chairman Leahy. Well, probably you will talk about--one of 
the things I learned as a prosecutor is never ask a question if 
you do not know the answer. I think I know the answer to this, 
but would both of you agree we ought to be reauthorizing this 
program?
    Mr. Macarilla. Yes, sir.
    Mr. Azur. Yes, sir.
    Chairman Leahy. And you like the idea for giving the 
department the ability to waive the matching, if necessary?
    Mr. Macarilla. I think with the smaller towns, with the 
limited resources they have, that is a necessity.
    Chairman Leahy. Well, I am going to introduce a bipartisan 
bill to reauthorize this program for another 3 years, and I am 
going to do that today. Congressman Visclosky is going to do 
that in the House. This is not a matter of Republicans or 
Democrats. That is why when Senator Campbell and I first joined 
on it, we made it very clear that it is not a Republican or a 
Democratic bill. This is a law enforcement bill.
    I know Senator Shelby, Republican from Alabama, and Senator 
Mikulski, Democrat from Maryland and the Chair of one of the 
Subcommittees and in Appropriations, have worked hard on this 
also. We will try to get this passed.
    I think many of the members on this Committee served in one 
form or another in law enforcement, as I did. We understand it. 
But I think it is important, and that is why I thank the FOP 
and others who are getting the word out how important it is to 
let people know. You have helped a great deal with that. I 
think that it is important that we hear these real-life things.
    You talked about the Draga incident, which I remember very, 
very well, and both FBI Director Freeh and I were--the phones 
were very busy at my farmhouse during that week. And, Detective 
Azur, we will let your family back in Vermont know you were 
here. I am sure they were delighted that you were OK after 
that.
    Mr. Azur. Yes.
    Chairman Leahy. I am also going to submit for the record a 
statement submitted by the Bureau of Justice Assistance 
Director Domingo Herraiz, and I thank Director Herraiz and the 
Department of Justice for their work on this.
    We will adjourn because we are going to have votes, but 
obviously, I support the bill. I know it has the strong support 
of the Fraternal order of Police. I am hoping that we can put 
this one on a fast track. I do not want to have any place where 
we go a few months without it. I live in a town of--you live in 
Waterbury, Lieutenant. How many people in Waterbury?
    Mr. Macarilla. A couple thousand.
    Chairman Leahy. Yes. And Middlesex has 1,200 where I am, 
the adjoining town. Montpelier, our State capital, has 8,500, 
where I was born. So you are the big-city guy here, Detective.
    Mr. Azur. I miss Vermont.
    [Laughter.]
    Chairman Leahy. Well, I am going to be there this weekend, 
and I look forward to being there. And I look forward to being 
home. I know that we have excellent law enforcement in our 
State, as you do in yours. And I also sometimes think that a 
lot of people do not realize what law enforcement people do for 
the hours they put in.
    Thank you very much, and we will stand in recess.
    Mr. Macarilla. Thank you, sir.
    Mr. Azur. Thank you, sir.
    [Whereupon, at 10:04 a.m., the Committee was adjourned.]
    [Submissions for the record follow.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
